Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



Jun
  ne 29, 2012

Daniel A. Trayn
              nor, SP 3A-C
                         C
Dia
  ane T. Wear, WT 4B-K

REEQUEST FOR MANAGE
                  EMENT DEC
                          CISION – AU
                                    UDIT 2011-13945 – [RED
                                                         DACTED]
IMPPLEMENTATION



Atta
   ached is thee subject fina
                            al report for your
                                          y    review and manage    ement decission. You arre
res
  sponsible forr determiningg the necess  sary actions to take in re
                                                                   esponse to o our findings.
Ple
  ease advise us of your management
                            m             t decision wiithin 60 dayss from the da
                                                                                ate of this re
                                                                                             eport.
Fin
  nal action is due
                d within one year from   m the date off manageme    ent decision.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have que  estions, plea
                           ase contact Amy
                                        A    R. Rus h, Audit Man            65) 633-7361 or
                                                                nager, at (86
Lisa H. Hamme  er, Director, Operationall Audits, at (8
                                                      865) 633-73
                                                                342. We app preciate the
couurtesy and cooperation received
                            r        from
                                        m your staff during the a
                                                                audit.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

AR
 RR:DBS
Atta
   achment
cc (Attachmentt):
      Andrea S.
              S Brackett, WT
                          W 5D-K                      Charrles H. McFaall, Jr., LP 3D
                                                                                    D-C
      Krystal R. Brandenbuurg, MP 3C-C
                                     C                Richaard W. Moorre, ET 4C-K  K
      David M. Frankenberrg, WT 4D-KK                                 ds, OCP 1L-NST
                                                      Emilyy J. Reynold
      Micheal B.
               B Fussell, WT
                          W 9B-K                      Anth ony D. Smitth, WT 5D-K  K
      Peyton T. Hairston, Jr.,
                          J WT 7B-K K                 Step hen B. Summmers, WT 5   5C-K
      Joseph J. Hoagland, WT 7B-K                     John
                                                         n M. Thomass III, MR 6D--C
      Robert Irv
               vin, WT 9C-KK                          Robeert B. Wells, WT 9B-K
      Tom Kilgoore, WT 7B--K                          OIG File No. 20111-13945
       
 


                                         Audit Report
 
Office
      of the Inspector General                                        

                                     To the Senior Vice President
                                     and Chief Information Officer  
                                     and to the Vice President and
                                                                    
                                     Controller 
 

 

 

 

 

[REDACTED]
 


IMPLEMENTATION 
 

 




 




 

 
 
 

 
Audit Team                                            Audit 2011-13945
Amy R. Rush                                              June 29, 2012
Sarah E. Huffman


                                  
Office of the Inspector General                                              Audit Report




ABBREVIATIONS
ARB                        Architectural Review Board
CEO                        Chief Executive Officer
CobiT                      Control Objectives for Information and Related Technology
[REDACTED]
[REDACTED]
FS                         Financial Services
FY                         Fiscal Year
HR                         Human Resource
[REDACTED]
[REDACTED]
IT                         Information Technology
OIG                        Office of the Inspector General
PMC                        Project Management Council
PRB                        Project Review Board
[REDACTED]
SPP                        Standard Programs and Processes
TVA                        Tennessee Valley Authority
VP                         Vice President




Audit 2011-13945
Office of the Inspector General                                                                     Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS ..................................................................................................... ….3

CONCLUSION............................................................................................ ….11

RECOMMENDATION ............................................................................... ….12

MANAGEMENT’S RESPONSE AND OUR EVALUATION...………….12


APPENDICES
A. [REDACTED]

B. MEMORANDUM DATED JUNE 15, 2012, FROM DIANE T. WEAR AND
   DANIEL A. TRAYNOR TO ROBERT E. MARTIN




Audit 2011-13945
                 Audit 2011-139
                              945 – [RE
                                      EDACTED
                                            D] Implem
                                                    mentation
                                                            n
                                   EXECUTIV
                                          VE SUMM
                                                MARY

According
A           to
             o project do
                        ocumentatioon, in fiscal year 2010, the Tenneessee Valle ey
Authority’s
A            (TVA) Chieff Executive Officer tassked Financcial Services (FS) with
re
 eplacing all TVA-issue ed purchasing cards w with a single
                                                          e Corporatee Credit Carrd
solution to maximize
            m          TV
                        VA’s credit card rebate es. FS perrsonnel statted the inte
                                                                                 ent
was
w to reduc    ce the number of outstanding carrds and deccrease risk exposure.
T project plan, dated
The                     d August 18
                                  8, 2011, sta ated FS andd Informatio
                                                                     on Technolo  ogy
fo
 ormed a pro oject team to
                         t implemeent the new solution. T The project team proposed
th
 he [REDAC  CTED] syste em, [REDAC CTED], be implemented to replace TVA’s
[R
 REDACTED    D] systems.

We
W initiated this audit based
                        b      on diiscussions with FS personnel reg   garding the
im
 mplementattion of a ne ew expensee system. O Our audit obbjectives we  ere to
(1
 1) assess whether
            w        TVA A performe
                                  ed adequate e analysis ffor its decission to
im
 mplement th he [REDAC  CTED] application and (2) verify TTVA’s syste  ems
developmen  nt processes were bein ng followedd and systemm and business protoccols
were
w     considered during g the implem
                                   mentation o of the [RED
                                                         DACTED] application. We
did not comp plete the se
                        econd objecctive becauuse the [REEDACTED] project wass
merged
m        with
            h the [REDA ACTED] pro oject. Our aaudit scope
                                                         e included tthe analysiss
performed too make the decision to o implemen nt the [REDA ACTED] ap   pplication a
                                                                                  as of
May
M 31, 201   11, as well as
                         a documentation sup  pporting tho
                                                         ose decision  ns.

We
W conclude   ed, based ono project documentat
                                     d           tion and disscussions w with projectt
managemen
m           nt personne  el, adequatee analysis w
                                                was not perrformed in tthe decision to
im
 mplement th he [REDAC  CTED] application. Sp   pecifically, tthe decision
                                                                         n was made   e
without
w        adheerence to TVA’s
                        T       projec
                                     ct managem ment policie  es resulting
                                                                         g in time deelays
within
w      the prroject, inade
                         equate bud dget planninng, duplicattion of efforrts including
                                                                                     g
potential waste of resou urces, and project ma nagement inefficiencie     es. Even
 hough steps
th           s were take en to (1) de
                                    efine a businness need, (2) derive estimates ffor
cost and tim
           me implementation and    d identify ow
                                                wnership, (3  3) evaluate alternativee
 ystem solutions, (4) obtain appro
sy                                  ovals and de efine a bud dget, and (55) assess thhe
current and future business condittions, these  e efforts we ere made affter
[R
 REDACTED   D] was chos  sen as the system solution. With     hout undersstanding the e
re
 easons and d parameters for imple  ementing a new expen    nse manage   ement syste  em,
th
 he project te
             eam’s efforrts to follow
                                    w the processs as outlined in the prroject
managemen
m           nt policies were
                         w     wastedd and resullted in sche edule delayys as well ass
project mana agement te eam frustrattions.

We
W recomm   mend the Vic  ce Presiden                      ures projectt management
                                    nt and Conttroller ensu
policies are followed with TVA’s mission
                                   m       in m
                                              mind by com mmunicating  g those policies
 o individuals within the
to                       e organization and stre
                                               essing the iimportance e of
(1
 1) adequate ely defining
                        g the busine
                                   ess need foor a project prior to selecting the
solution, (2) validating assumption
                          a         ns and evalluating the business conditions a and
alternative solutions,
            s            nd (3) determining pro
                        an                     oject budgeet limits and
                                                                      d obtaining
project approval.
                                                                                     Page i
                Audit 2011-139
                             945 – [RE
                                     EDACTED
                                           D] Implem
                                                   mentation
                                                           n
                                EXECUTIV
                                       VE SUMM
                                             MARY

TVA
T    management agre   eed with the
                                  e recomme  endations; h
                                                        however, they disagree
                                                                             ed
with
w some of the facts anda conclus   sions noted
                                             d in the report. We ha
                                                                  ave revised the
re
 eport, as ap
            ppropriate, to address TVA mana  agement’s ccomments. See
Appendix
A          B for TVA’s complete
                       c         re
                                  esponse.




                                                                            P
                                                                            Page ii
Office of the Inspector General                                                                Audit Report


BACKGROUND
In fiscal year (FY) 2010, according to the [REDACTED] system, [REDACTED],
project documentation, the Tennessee Valley Authority’s (TVA) Chief Executive
Officer (CEO) tasked Financial Services (FS) with replacing all TVA-issued
purchasing cards1 with a single Corporate Credit Card solution to maximize
TVA’s credit card rebates. FS personnel stated the intent was to reduce the
number of outstanding cards and decrease risk exposure. The [REDACTED]
project plan, dated August 18, 2011, stated FS and Information Technology (IT)
formed a project team and proposed TVA’s [REDACTED] systems be replaced
with [REDACTED] to support this single card solution. According to FS and IT
personnel, TVA assumed, based on information provided by Supply Chain
personnel, 13,000 full-use licenses of [REDACTED] were already owned by TVA
as part of the [REDACTED].2 According to FS personnel, TVA initially
considered this implementation to be an enhancement to the existing
[REDACTED] of applications, referred to as the [REDACTED], rather than a
separate project as defined by TVA policies. In addition, the timeframe for
implementing [REDACTED] was expected to be short, and the implementation
cost was expected to be low.

According to the November 2011 timeline prepared by the project team, the
decision to implement [REDACTED] was made by FS in September 2010, and in
November 2010, a functional project lead was assigned to the project. By this
time, TVA had determined the time and resources necessary to implement
[REDACTED] made it necessary to reclassify it from an “enhancement” to a
“project.” In December 2010, IT personnel presented the [REDACTED] project to
the IT Architectural Review Board (ARB), and the project was assigned an IT
project manager.

TVA project management policies are designed to provide a framework for
decision making regarding project initiation and project control. At the time the
decision was made to implement [REDACTED], there existed three project
management standard programs and processes (SPP) relevant to [REDACTED]
implementation: one specific to IT and two TVA-wide SPPs. These SPPs3
established the governance for management and control of TVA projects and
defined the responsibilities of project team members as well as project phases
and their purposes.



                                                            
1
     This includes the TVA Citibank travel card, fuel management card, and executive VISA gold credit card,
     as well as the TVA VISA Purchasing Card.
2
     TVA purchased the [REDACTED] of applications in 2006. According to FS personnel, TVA had
     previously planned to implement [REDACTED] in 2008 when TVA’s [REDACTED] system was replaced;
     however, the Chief Administrative Officer at the time decided against the [REDACTED] implementation.
     It was explained that cost may have been a factor for this decision.
3
     The SPPs in effect at the date of project initiation were TVA-SPP-34.0, Project Management; TVA-SPP-
     19.3, Project Justification Process; and IS-SPP-PO10, Manage IT Projects.
Audit 2011-13945                                                                                    Page 1
Office of the Inspector General                                                       Audit Report


In March 2011, the Office of the Inspector General (OIG) initiated an audit with
the purpose of assessing the decision to implement [REDACTED]. However,
after issuing the scheduling memorandum, the FS General Manager informed us
no final decision had been made on deploying [REDACTED], and analysis was
currently being performed to make the decision. The General Manager also
mentioned [REDACTED] was a component module in TVA’s [REDACTED]
system, and analysis for implementing [REDACTED] would have originally been
performed as part of the selection of the [REDACTED] of applications. At that
time, the OIG canceled the review. The OIG later learned the implementation
project was back in progress and therefore initiated the current review.

In January 2012, the [REDACTED] project was combined with the [REDACTED]
project. The [REDACTED] is a module of [REDACTED]; therefore the two are
highly integrated. The [REDACTED] is contingent upon the completion of the
[REDACTED]; therefore, the estimated go-live date was moved to October 2012.
The current budget for the [REDACTED] implementation project is approximately
$1.3 million with actual expenditures to date of approximately $522,000.
[REDACTED].

OBJECTIVES, SCOPE, AND METHODOLOGY
We initiated this audit based on discussions with FS personnel regarding the
implementation of a new expense system. Our audit objectives were to
(1) assess whether TVA performed adequate analysis for its decision to
implement the [REDACTED] application and (2) verify TVA’s systems
development processes were being followed and system and business protocols
were considered during the implementation of the [REDACTED] application.
During our fieldwork, the [REDACTED] project was merged with the [REDACTED]
project. Once these two projects were merged, [REDACTED] implementation
was delayed. Therefore, we did not conduct our second objective. The scope of
this audit included the analysis performed to make the decision to implement the
[REDACTED] application as of May 31, 2011, as well as documentation
supporting those decisions.4

To achieve our objective, we:

      Interviewed FS and IT personnel, as well as other [REDACTED] stakeholders,
       to determine the reasons for initiating the project as well as the analysis
       performed in the selection of [REDACTED] and obtained documentation
       supporting those decisions.
      Reviewed project documentation including, but not limited to, the project
       charter, scope statement, project timeline, and project approval documentation
       to determine the reasons for initiating the project as well as the analysis
       performed in the selection of [REDACTED].

                                                            
4
     Documentation supporting the decisions may have been dated after May 31, 2011.
Audit 2011-13945                                                                           Page 2
Office of the Inspector General                                                                   Audit Report


      Examined the Project Management Body of Knowledge Guide, which
       documents standard terminology and guidelines for project management for
       best practices related to project initiation.
      Identified project management policies and procedures through a search of
       TVA’s on-line Procedure Center. We identified three specific SPPs that were
       in effect during project initiation, which we considered relevant to the
       [REDACTED] project.
      Reviewed TVA-SPP-34.0, Project Management; TVA-SPP-19.3, Project
       Justification Process; and IS-SPP-PO10, Manage IT Projects, to determine
       the documented processes and controls for managing a project.
      Evaluated the information gathered from the interviews and project
       documentation against the processes and controls outlined in the SPPs to
       conclude whether TVA performed adequate analysis for its decision to
       implement the [REDACTED] application.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

FINDINGS
As part of the CEO-driven initiative for a single Corporate Credit Card,
[REDACTED] was selected as the solution to be implemented. We concluded,
based on project documentation and discussions with project management
personnel, adequate analysis was not performed in the decision to implement the
[REDACTED] application. Specifically, management failed to adhere to TVA’s
project management policies due to management circumvention of controls.5
Even though steps were taken to (1) define a business need, (2) derive estimates
for cost and time implementation and identify ownership, (3) evaluate alternative
system solutions, (4) obtain approvals and define a budget, and (5) assess the
current and future business conditions, these efforts were made after
[REDACTED] was chosen as the system solution. This resulted in time delays
within the project, inadequate budget planning, duplication of efforts including
potential waste of resources, and project management inefficiencies.




                                                            
5
     For purposes of this report, we characterized the finding as a management circumvention of controls
     based on the (1) July 2007 Government Auditing Standards’ definition of internal controls over program
     operations and (2) TVA-SPP-19.3, Project Justification Process, definition of project review and approval
     as a Sarbanes-Oxley control activity. While we found no indication of fraud in the performance of our
     review, we did find management did not follow procedures or controls designed to mitigate risks,
     including fraud risk.
Audit 2011-13945                                                                                       Page 3
Office of the Inspector General                                                                     Audit Report


Business Need Not Defined
As stated earlier, [REDACTED] was selected6 by FS as the system solution in
September 2010; however, we were provided no evidence that a business need
for implementing a new system was defined prior to that selection. The most
recent project charter dated July 2011 and project plan dated August 2011 stated
the project was undertaken to streamline the expense process. According to the
project charter, the three systems utilized to manage TVA’s credit cards had
failed to route monies properly causing rejections that must be corrected by
journal entries each month. In addition, the project charter stated that current
systems had failed to provide a complete audit picture. Although the project
charter did not specifically state the business need for an expense management
system, in our opinion, the stated purpose for undertaking the project was to
streamline the process as well as correct or remove the legacy system issues,
not provide a solution for the single corporate card.

In addition, we were provided no evidence the [REDACTED] project sponsor
communicated and agreed upon the business need or expectations with the
project team. Specifically, there was no evidence the [REDACTED] project
sponsor7 reviewed or approved documentation, such as the charter, scope
statement, and plan. These documents outline the description, goals, and
objectives of the project. In addition, the [REDACTED] project management
team was not able to iterate management expectations and ways to measure
those expectations. According to the project team, the [REDACTED] project has
had many “stops and starts” due to a lack of clear direction and available funding.

According to TVA project management SPPs, a purpose or business need for
undertaking the project should be established and documented prior to the
evaluation of options and selection of the best solution. The business need could
be based on reasons including, but not limited to, market demand, technological
advancement, and/or legal or regulatory requirements. A defined business need
aids in the determination of whether a project is worth the required investment as
well as the identification of project objectives and stakeholder expectations to aid
the project management team in the implementation of a solution that best meets
the organization’s needs.

Verifiable Assumptions Should Have Been Validated or Better Estimated
When projects are planned and executed, information critical to the project’s
success may or may not be available; therefore, it is assumed and validated
when possible. These assumptions aid in adequate analysis of risks, efficient
project planning, and timely delivery of the project. Project documentation and
discussions with the project team indicate [REDACTED] was selected in
September 2010 for implementation based on a combination of three factors:
implementation cost, estimated time to implement, and the ownership of

                                                            
6
     As shown later in this report, no evidence exists that the project was actually approved.
7
     A project sponsor’s responsibilities include securing funding for the project as well as ensuring projects
     are vetted through the project justification or TVA’s business planning processes and approval.
Audit 2011-13945                                                                                          Page 4
Office of the Inspector General                                                             Audit Report


[REDACTED] by TVA.8 However, each factor that was used as a basis for
selecting [REDACTED] was based on flawed information and/or incorrect
assumptions that could have been validated or better estimated prior to the
decision.

Implementation Costs and Estimated Implementation Time
The project timeline, dated November 2011, stated an agreement for the
Corporate Credit Card was drafted in response to the CEO’s request. The
timeline, provided by the project team, indicated soon after this agreement was
drafted in the fourth quarter of FY 2010, discussions were held as to whether to
upgrade [REDACTED] or move to [REDACTED]. The original cost and time
estimates for implementing [REDACTED] totaled $165,000 (later revised to
$100,000) and 3 months. The completion date for [REDACTED] was originally
scheduled for April 2011. In contrast, cost and time estimates provided by
Supply Chain personnel indicated it was cheaper and less time-consuming to
upgrade the legacy systems rather than to implement [REDACTED]. At the time
the [REDACTED] decision was made, these upgrades to the legacy systems
were estimated at approximately $60,0009 and 130 hours and were based upon
approximately 20 requirements specific to those systems and dependent upon
the availability of subject matter experts. However, according to project
management personnel, the initial estimate of approximately $60,000 for
upgrading these systems was thought to be well below the true cost. Additional
cost estimates for upgrading the legacy systems were provided for February and
March 2011. These costs ranged from approximately $65,000 to $346,000.

Despite the fact estimates to upgrade [REDACTED] were less than estimates to
implement [REDACTED], the November 2011 project timeline, provided by the
project team, indicates [REDACTED] was selected as the system solution in
September 2010. However, it was later determined the original estimates of
$100,000 and $165,000 for implementing [REDACTED] did not take into account
all aspects of implementation. According to IT personnel, original cost estimates
were verbally provided to FS and were based on the technical configuration of
the system only, neither taking into consideration the requirements that needed
to be met nor the end-user training to be provided; whereas, FS personnel
understood the provided amounts to be the total implementation cost of
[REDACTED]. When the project team realized this gap, they revisited the initial
estimates for implementing [REDACTED]. Several cost estimates ranging from
approximately $474,000 to approximately $1 million were calculated by the
project team during March 2011 for the [REDACTED] implementation. The
[REDACTED] project team informed the OIG in July 2011 they estimated the cost
of the project would total approximately $1.2 million; however, we noted the
FY 2011 and 2012 budgets, according to the project team’s timeline, indicated an

                                                            
8
     Because the module is part of the [REDACTED], which was purchased by TVA in 2006, [REDACTED]
     would be integrated with TVA’s current [REDACTED] system.
9
     Project documentation indicates project costs for upgrading [REDACTED] were only estimated to be
     approximately $50,000. Cost estimate spreadsheets obtained from Supply Chain personnel indicated an
     additional $10,000 would be needed to update [REDACTED].
Audit 2011-13945                                                                                 Page 5
Office of the Inspector General                                              Audit Report


estimate of about $1.3 million. We have included a timeline of estimated project
costs and implementation dates below (see Table 1). These estimates are
based on project documentation and interviews with the project team.

                                   Estimated Cost to         Estimated
                   Date
                                       Implement        Implementation Date
             September 2010             $165,000            April 1, 2011
             November 2010              $100,000            April 1, 2011
               March 2011         $437,000 - $787,400       April 1, 2012
               March 2011         $542,000 - $843,000       May 1, 2012
               March 2011              $1,005,000          None provided
                July 2011              $1,200,000          None provided
              October 2011             $1,343,200          None provided
                                                                          Table 1

Project documentation indicates estimates during and after March 2011 were
based on a list of requirements gathered specifically for the implementation of
[REDACTED] but without input from project stakeholders affected by the change.
According to the IT project management policy, project stakeholders include the
sponsor and representatives from the business units that will be the recipients of
project deliverables. However, project documentation indicated there were no
representatives from TVA organizations outside FS, People and Performance,
and IT even though personnel within all other TVA organizations would be
affected by the project.

Ownership of [REDACTED]
As stated previously, TVA purchased the [REDACTED] in 2006 and implemented
[REDACTED] in 2008. The [REDACTED] was included in the purchase; however,
TVA management decided not to implement the module at that time. When the
decision was later made to implement [REDACTED], the understanding was that
TVA owned enough licenses for each of TVA’s approximately 13,000 employees
to generate expense reports. This was based on information received from
Supply Chain indicating no additional licenses needed to be purchased. In
actuality, TVA owned licenses to produce 13,000 expense reports, which would
mean each employee could submit approximately one expense report per year.
According to project documentation, this was not discovered until September
2011, 1 year after the decision was made to implement [REDACTED]. The
additional purchase of the licenses added about $260,000 to the project cost,
which was not included in the original or updated estimates discussed earlier.

It is our opinion, each of the three factors previously discussed–implementation
cost, estimated time to implement, and ownership–could have been better
estimated or validated if due diligence had been performed prior to the selection
of [REDACTED]. The determination to implement [REDACTED] was made
based on cost and time estimates that were verbally discussed but not fully
understood by FS and IT personnel. This misunderstanding caused the project
team to revisit the implementation estimates on multiple occasions resulting in
duplication of efforts and a potential waste of resources. In addition, although FS
and IT personnel knew TVA owned [REDACTED], the licensing use was not
Audit 2011-13945                                                                    Page 6
Office of the Inspector General                                                                Audit Report


confirmed and included in the cost prior to determining [REDACTED] was to be
implemented.

Alternative Solutions Not Adequately Evaluated
We determined alternative solutions were not adequately evaluated prior to
system selection. There were three choices TVA faced when deciding to
implement a new expense management system: (1) keep the legacy systems
[REDACTED] that were currently in place, (2) implement the [REDACTED]
application already owned by TVA, or (3) explore other expense management
applications. These choices could have been narrowed down based on the
business need, as stated above, as well as the identification of business
requirements. It is our opinion, requirements were not adequately defined based
on TVA’s IT project management policy and Control Objectives for Information
and Related Technology (CobiT)10 in order to obtain a reasonable estimate for
cost comparison of each solution. In addition, we question whether the
evaluation process for the alternative solutions was necessary based on
conversations with FS and IT personnel and project documentation stating issues
with the legacy systems and costs associated with implementing a new system
not owned by TVA.

When documenting the requirements for a new system, it is good business
practice to document those needs based on current- and future-state practices
and processes as well as stakeholder expectations. To perform an adequate
assessment of the alternative solutions, it is our opinion, based on TVA’s IT
project management policy and CobiT, the systems should be measured against
the business requirements rather than the other way around. To further clarify, a
list of requirements should be documented and system alternatives should be
compared to the list of requirements prior to system selection. As stated
previously, a few requirements were derived specifically for the cost estimation to
upgrade the legacy systems; whereas, no requirements were included in the
initial estimate for implementing [REDACTED]. Project documentation indicates
requirements, specific to [REDACTED], were later documented. However,
business requirements should be established prior to the evaluation of
alternatives since these requirements factor into the true cost of a system
upgrade or implementation.

During the [REDACTED] demonstrations occurring in January 2011, FS personnel
stated the only system options were to upgrade the current systems or to
implement [REDACTED] since it was part of the [REDACTED], which TVA had
already purchased. We noted estimates for upgrading the legacy systems were
revisited three times11 during second quarter 2011 with the estimates being
cheaper than cost estimates for implementing [REDACTED]; however, the
decision was made to continue with the [REDACTED] implementation. According
to the former project sponsor, this was because the legacy systems could not
                                                            
10
     CobiT is a framework created by the Information Systems Audit and Control Association for IT
     management and IT governance.
11
     The first revised estimate did not include the cost to upgrade [REDACTED].
Audit 2011-13945                                                                                    Page 7
Office of the Inspector General                                                            Audit Report


support the one-card initiative requested by the CEO. In addition, the project
team’s timeline, dated November 2011, stated legacy systems would likely have
to be replaced at some point in the future since the decision to implement a new
Human Resource (HR)/Payroll system had been made. As stated previously, it
was also noted in the most recent project charter dated July 2011 that legacy
systems have failed to (1) route monies properly, causing rejections that must be
corrected by journal entries each month and (2) provide a complete audit picture,
causing the auditing of a group of transactions to be unnecessarily complex.
Since these issues were apparent with regard to the legacy systems, it begs the
question of why that alternative was considered and then revisited multiple times.
According to IT personnel, the upgrades may have been considered because the
legacy systems are good products built specifically to support TVA’s processes
and are [REDACTED]; however, the disadvantages to the upgrades are the
maintenance costs of customized software for TVA as well as the single points of
failure with regard to system experts.

As noted above, FS personnel originally stated there were only two options for
implementing an expense management system; however, in March 2011, the
IT project team studied Travel and Expense Management solutions provided by
Gartner, Inc., as well as performed internet searches for additional publications.
In addition, project documentation indicates Supply Chain personnel requested
quotes for expense management systems from five companies; however, project
documentation also stated the quotes were not received. Based on the research
performed, IT recommended the project team continue with [REDACTED] since
choosing a product TVA did not currently own would result in (1) a scope
increase due to the competitive bid process and additional interface
development; (2) a cost increase due to licensing, infrastructure, and interface
builds; and (3) an implementation delay of 3 to 6 months. According to the
project team’s timeline, in September 2011, the project team reevaluated the
possibility of utilizing a system TVA did not own based on the fact TVA had
inadequate licensing for [REDACTED]. According to that documentation, a price
was obtained from one vendor,12 and it was decided to keep [REDACTED] and
negotiate the licensing costs as part of the HR/Payroll system selection.

Project Approval Not Obtained and Budget Not Established
We were provided no evidence the project was entered into the Project
Management Council (PMC) or Project Review Board (PRB) processes or
approval was obtained for the project prior to the September 2010 decision. As
stated previously, FS personnel considered [REDACTED] to be an enhancement
to the existing [REDACTED] of applications rather than a separate project as
defined by TVA policies; therefore, project approval would not have been sought.
According to project management policies, it is the responsibility of the project
sponsor, initially the FS General Manager for [REDACTED] who later became IT’s
Enterprise Solutions Delivery Vice President (VP), to secure funding for the
project as well as to ensure projects are vetted through the project justification or
TVA’s business planning processes and approval. This includes presenting the
                                                            
12
     One of the two vendors considered for the HR/Payroll system implementation. [REDACTED].
Audit 2011-13945                                                                                Page 8
Office of the Inspector General                                                            Audit Report


project to the organization’s PMC or PRB who have oversight responsibility for
project planning and control. In addition, this includes obtaining project approval
from certain officers and/or executives, dependent on the project cost and
classification of the project as capital or operations and maintenance. Based on
these policies, approval of the [REDACTED] project should have been granted by
the organization’s VP or a delegate. According to the organizational chart dated
May 2011, IT’s Enterprise Solutions Delivery VP, who originally fulfilled the role of
project sponsor, was also the equivalent of the organization’s VP.

Based on this explanation, we attempted to obtain evidence of this communication
to IT. However, we could find no evidence the enhancement was communicated
to IT or that it was entered into the process for changing TVA’s production
environment as required by an IT SPP.13 We were provided evidence of the
[REDACTED] project submittal to the ARB for approval by IT personnel, although
this occurred in December 2010, 3 months after [REDACTED] was selected as
the system solution. According to the project sponsor, when the project was
taken before the ARB, the ARB determined the [REDACTED] project fell within
the scope of the HR/Payroll system replacement project. Had the project been
vetted through the PMC or PRB, the determination may have been made to
cancel the [REDACTED] project since the project fell within the scope of the
HR/Payroll system project. We also reviewed project documentation to determine
when the [REDACTED] project was entered into the project justification process.
According to IT personnel, they were in the process of entering the project into the
project management process as of December 2011, 1 year after the project was
presented to the ARB.

Although [REDACTED] did not go through the project justification or business
planning processes, FS and IT personnel stated FS had enough money in the
FY 2010 budget to implement [REDACTED], based on initial project estimates of
$100,000 to $165,000, which considered [REDACTED] an enhancement to the
[REDACTED] of applications. FS and IT personnel further stated FS did not have
enough money in the FY 2011 budget to implement [REDACTED] as a project,
based on revised estimates of approximately $400,000 to $1.2 million. We were
provided no evidence defining the budget limits for implementing an expense
management system were ever discussed or set. In addition, we could not verify
the initial budget and some budget revisions because they were overwritten by the
project management team and previous versions were not maintained. We were
provided with documentation, dated December 2010, indicating budget dollars of
$142,750 were moved from [REDACTED] to [REDACTED]. According to IT
project management personnel, the funding had been transferred to IT as part of
the IT budget centralization effort in FY 2012.

As stated earlier, it is the responsibility of the project sponsor to identify the
business need and secure funding for the project as well as to ensure projects
are approved. This also includes emergent projects that were neither previously
                                                            
13
     IT-SPP-12.09, Manage Changes, provides guidelines for making changes, including enhancements, to
     TVA’s production environment.
Audit 2011-13945                                                                                Page 9
Office of the Inspector General                                                               Audit Report


prioritized nor had funding previously allocated, such as [REDACTED]. When
approvals are not obtained prior to project implementation, the risk of spending
money on projects that are not suited to meet TVA’s need is heightened. In
addition, when budget limits are not defined prior to project implementation, the
organization runs the risk of unlimited spending on one project, which could
affect the timing and cost of other ongoing or planned projects or enhancements.

Business Conditions Not Adequately Assessed
Along with a business need not being defined and requirements not being
established prior to selecting a system solution, project documentation indicates
business conditions were also not assessed. It is our opinion, based on data
provided by IT personnel, that assessment of the business conditions did not
occur prior to the September 2010 decision to implement [REDACTED] because
FS assumed the project could be implemented within 3 months or by April 2011;
therefore, future system upgrades and changes in business practice would not
immediately affect [REDACTED] implementation. However, business conditions
should have been assessed to determine whether the project affected other
future or on-going projects. We were provided no evidence discussions were
held regarding the effect of [REDACTED] on existing or future TVA systems prior
to April 2011. In addition, we were provided no evidence the sponsor or project
team reviewed the prior work performed for the 2008 [REDACTED] planned
implementation or the reasons for not implementing [REDACTED].

According to the project team’s timeline, dated November 2011, the decision to
implement a new HR/Payroll system had been made as of March 2011.14 We
noted some expense functionality requirements overlap between the HR/Payroll
and [REDACTED] systems, such that expense requirements were included in the
HR/Payroll system request for proposal, dated May 20, 2011, and vendor
demonstrations for the HR/Payroll replacement system selection process. As
stated above, requirements for the [REDACTED] project were gathered
specifically for the implementation of the system without input from all personnel
affected by the change. According to the project sponsor, when the project was
taken before the ARB, the ARB determined the [REDACTED] project fell within
the scope of the HR/Payroll system project. However, a business process review
workshop was not scheduled with the HR/Payroll system project team until April
2011. In February 2012, we were informed discussions have been held once
again by the [REDACTED] and HR/Payroll system project teams with regard to
functionality requirements.

Furthermore, various decisions affecting the scope and/or schedule of the
[REDACTED] project are still being made. Specifically, the decision to merge the
[REDACTED] implementation with the [REDACTED] project was made in
January 2012. Once these two projects were merged, [REDACTED]
implementation was delayed. The [REDACTED] project plan, dated August 2011,
noted resources were being shared among [REDACTED], the HR/Payroll system
                                                            
14
     According to an Executive Steering Committee presentation, the decision to implement a new HR/Payroll
     system was known as early as November 2010.
Audit 2011-13945                                                                                  Page 10
Office of the Inspector General                                                                  Audit Report


implementation, and [REDACTED] projects with regard to the technical project
leads. In addition, the decision to implement travel per diem for meals rather than
actuals was made in February 2012.15 This decision affects the requirements to
be included in the [REDACTED] implementation.

As previously stated, TVA planned to implement [REDACTED] in 2008 when the
[REDACTED] system was replaced; however, the Chief Administrative Officer
decided against the [REDACTED] implementation. According to the FS General
Manager, analysis for implementing [REDACTED] would have originally been
performed as part of the selection of the [REDACTED] of applications. However,
neither the sponsor nor the project team reviewed the prior work performed for the
2008 [REDACTED] planned implementation or the reasons for not implementing
[REDACTED]. Review of prior decisions and work performed may have provided
FS and IT with a better idea of the scope of work the implementation would entail
as well as could potentially decrease duplication of efforts.

Based on the above, it is our opinion that the decision to implement [REDACTED]
was made without coordinating with other TVA on-going or future projects. This
coordination could have resulted in potential cost reductions and improved project
management efficiencies, not only with the [REDACTED] project but with other
related system projects as well.

CONCLUSION
We conclude the decision to implement [REDACTED] was made without
adherence to TVA’s project management policies due to management
circumvention of controls.16 Not initially defining the business need for the project
as well as not allowing the process to guide the project team to the most
appropriate solution resulted in time delays within the project, inadequate budget
planning, duplication of efforts including potential waste of resources, and project
management inefficiencies. The assumption that TVA owned adequate licenses
for generating expense reports as well as the understated estimated cost and time
for implementing [REDACTED] may have clouded the judgment of the project
team in the selection of the most appropriate system solution. When it was
determined these factors were flawed, the project team attempted to follow the
process as outlined in the project management policies, but without understanding
the reasons and parameters for implementing a new expense management
system, these efforts were wasted and resulted in schedule delays as well as
project management team frustrations. While we cannot state another system
solution would have been more suitable to meet TVA’s needs, neither can we
state [REDACTED] is the best solution. We can conclude, however, better
                                                            
15
     Discussions to move to per diem were taking place as early as December 2011.
16
     As stated previously, we characterized the finding as a management circumvention of controls based on
     the (1) July 2007 Government Auditing Standards’ definition of internal controls over program operations
     and (2) TVA-SPP-19.3, Project Justification Process, definition of project review and approval as a
     Sarbanes-Oxley control activity. While we found no indication of fraud in the performance of our review,
     we did find management did not follow procedures or controls designed to mitigate risks, including fraud
     risk.
Audit 2011-13945                                                                                     Page 11
Office of the Inspector General                                           Audit Report


defining the project need and adequately following the process, as outlined in
TVA’s project management policies, could increase project management team
efficiencies.

RECOMMENDATION
We recommend the VP and Controller ensure project management policies are
followed with TVA’s mission in mind by communicating those policies to
individuals within the organization and stressing the importance of (1) adequately
defining the business need for a project prior to selecting the solution,
(2) validating assumptions and evaluating the business conditions and alternative
solutions, and (3) determining project budget limits and obtaining project
approval.

MANAGEMENT’S RESPONSE AND OUR EVALUATION
TVA management agreed with the recommendations; however, they disagreed
with some of the facts and conclusions noted in the report. Specifically, TVA
management disagreed with:

    The description of the task FS was given by the CEO with regard to replacing
     existing credit cards. We added to the final report the intent of the task as
     described by FS.
    The use of the words “management override of controls” to describe the
     findings. We revised the wording in the report and added a footnote
     explanation.
    The description of the (1) [REDACTED] selection date and (2) project sponsor
     involvement business need finding. TVA management’s comment letter said
     the decision to implement [REDACTED] was in April 2011, not September
     2010 as stated in our report. We disagree. TVA management’s assertion in
     this regard is contrary to the evidence we collected in the course of the audit.
     We considered the [REDACTED] selection date to be September 2010 based
     on several factors. Specifically, the project timeline, prepared by the project
     team, stated [REDACTED] was selected as the system solution in September
     2010. In addition, OIG personnel were invited to a meeting in January 2011,
     prior to the initiation of this review, where FS personnel stated [REDACTED]
     had been selected as the system solution with a “go-live” date of April 1,
     2011. We also reviewed ARB documentation, including e-mail
     communication dated December 2011, which stated the project needed to be
     scoped “really fast” because “. . . it sounds like they are actually ready to
     implement.” Furthermore, project documentation descriptions and titles
     throughout the life of the project indicated [REDACTED] had been selected as
     the system solution when documentation was submitted to the ARB in
     December 2010. Regarding TVA’s point about project sponsor
     communication, we did not state the project sponsor did not interact or
     communicate with the project team during the project nor was that our intent.
Audit 2011-13945                                                             Page 12
Office of the Inspector General                                             Audit Report


     Rather, we stated there was no documentation that business need or
     expectations for implementing a new expense management system were
     communicated by the project sponsor to the project team.
    The information omitted from the report finding related to the validation of
     assumptions. While it is true we received several estimates for upgrading
     the legacy systems, we discussed in the draft report the estimate obtained
     prior to the September 2010 decision to implement [REDACTED] because
     that was the operative estimate at the time the decision was made. The
     additional estimates were dated February and March 2011. We have
     clarified this in the final report and included the subsequent estimates for
     context. In addition, the identified needs that could not be met by the legacy
     systems were not included in the report verbiage because these were not
     contained in the requirements used to determine the initial estimate for
     upgrading the legacy systems. With regard to the evaluation of the system
     by key management staff, it is our understanding this occurred after the
     September 2010 system selection.
    The use of the word “assumptions” to describe the information provided by
     Supply Chain related to [REDACTED] ownership. We agreed and revised
     the verbiage on page 6.
    The characterization of the finding related to the evaluation of alternatives
     because it needed further clarification. To further clarify, alternatives were not
     adequately evaluated--a list of requirements should be documented and
     system alternatives should be compared to the list of requirements prior to
     system selection. We question whether the evaluation of costs should have
     been undertaken since we were provided no documentation that comparison
     of each system to a set list of requirements was performed. If systems had
     been compared to the requirements, there may have been no need to
     evaluate the costs associated with upgrading legacy systems or implementing
     systems other than [REDACTED]. For example, single sign-on capability and
     external access were requirements critical to the expense management
     project according to your response; however, the legacy system could not
     support those requirements.
    The description of the finding related to project approval and establishment
     of a budget because (1) the decision to implement [REDACTED] occurred in
     April 2011 when approval was obtained from the Chief Information Officer
     and (2) emergent work was not contemplated in the FY 2011 budget. The
     statement that no evidence of the enhancements was provided to IT is not
     considered to be inconsistent with the ARB submission evidence. IS-SPP-
     PO10, Manage IT Projects, states projects are submitted to the ARB for
     project approval. Enhancements, defined as software and infrastructure
     changes in IT-SPP-12.09, Manage Changes, are to be logged into the
     software change service system or with the [REDACTED] Service Desk. We
     were provided no evidence, as stated in the report, that enhancements were
     communicated to IT prior to the September 2010 decision. Furthermore, we
     do not consider the implementation of [REDACTED] as an enhancement to

Audit 2011-13945                                                               Page 13
Office of the Inspector General                                               Audit Report


     the existing [REDACTED] system due to the effects on existing systems,
     business processes, and policies. With regard to funding, project
     management policies state it is the responsibility of the project sponsor to
     (1) identify the business need and secure funding for the project as well as
     (2) ensure projects are approved. TVA project management policies define
     various stages within a project, including the study and engineering, detailed
     design, and implementation and closure phases. Each of these phases is
     required to have management approval in accordance with the policies. This
     approval is to be documented in the project justification system or its
     replacement system, [REDACTED], depending on the date the phase was
     initiated. Furthermore, if approval is sought for an emergent, nonfunded
     project, the strategic business unit is to reprioritize projects and verify current
     funding allocation is maintained prior to seeking approval for the project.
    The description that the decision to implement [REDACTED] was made in a
     silo because discussions were held between organizations to discuss the
     implementation of [REDACTED] and the HR system. Discussions regarding
     [REDACTED] and the HR system implementation occurred after the selection
     of the system solution in September 2010. During the review, we asked for
     all documentation related to the [REDACTED] project, specifically, documents
     related to the business decision. We were provided access to SharePoint
     and were told [REDACTED] documents resided there. We also made
     multiple requests for meeting minutes associated with the [REDACTED]
     project. None of the documentation provided contained discussions about
     [REDACTED] and the HR system implementation occurring between the
     Chief Information Officer and the People and Performance Senior Vice
     President.




Audit 2011-13945                                                                 Page 14
APPENDIX A
[REDACTED]
APPENDDIX B
 Page 1 of 4
APP
  PENDIX B
 Pa
  age 2 of 4
APP
  PENDIX B
 Pa
  age 3 of 4
APP
  PENDIX B
 Pa
  age 4 of 4
